No. 20-1425
IN THE SUPREME COURT OF THE UNITED STATES
C.H. ROBINSON WORLDWIDE, INC.,
Petitioner,
v.
ALLEN MILLER,
Respondent.
CERTIFICATE OF SERVICE
I, Adina H. Rosenbaum, a member of the bar of this Court, hereby certify that
per the Court’s April 15, 2020 order and the parties’ agreement to accept electronic
service, a true and correct copy of Respondent’s Brief in Opposition in the abovecaptioned case was sent via e-mail to the following counsel:
Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
Counsel for Petitioner
I further certify that all parties required to be served have been served.
Executed June 16, 2021.

Adina H. Rosenbaum
Public Citizen Litigation Group
1600 20th St. NW
Washington, DC 20009
(202) 588-1000
arosenbaum@citizen.org

